No. 20-895

In The

Supreme Court of the United States
____________
SCOTT A. SELDIN, INDIVIDUALLY AND AS TRUSTEE OF THE
SELDIN 2002 IRREVOCABLE TRUST, DATED DECEMBER 31, 2002, ET AL.,
V.

Petitioners,

ESTATE OF STANLEY C. SILVERMAN, ET AL.,
Respondents.
____________
ON PETITION FOR A WRIT OF CERTIORARI
TO THE SUPREME COURT OF NEBRASKA
____________
REPLY IN SUPPORT OF PETITION FOR A WRIT OF CERTIORARI
____________
CERTIFICATE OF SERVICE
I, Roman Martinez, counsel for Petitioners Scott A. Seldin, individually and as
trustee of the Seldin 2002 Irrevocable Trust, dated December 13, 2002; Millard R.
Seldin, individually and as trustee of the Millard R. Seldin Revocable Trust, dated
October 9, 1993; Seldin Real Estate, Inc.; Kent Circle Investments, LLC; and Belmont
Investments, LLC, and a member of the Bar of this Court, hereby certify that on the
26th day of April, 2021, I caused to be served a single copy of the Reply in Support of
Petition for a Writ of Certiorari in the above-referenced case by first-class mail,
postage prepaid, upon counsel for Respondents as listed below:

Barbara A. Smith
Bryan Cave Leighton Paisner LLP
211 North Broadway, Suite 3600
St. Louis, MO 63102
barbara.smith@bclplaw.com
(314) 259-2367
Counsel for Respondents
Additionally, in accordance with Supreme Court Rule 29.3, an electronic
version of the Reply in Support of Petition for a Writ of Certiorari was transmitted to
the above-listed counsel at the referenced email address.
I further certify that all parties required to be served have been served.

By
Roman Martinez
LATHAM & WATKINS LLP
555 11th Street, NW
Suite 1000
Washington, DC 20004
(202) 637-3377
roman.martinez@lw.com
Counsel for Petitioners

2

